TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Automated Underreporter Program
                      Compliance Activities Were Properly
                      Suspended for Taxpayers Affected by
                        Hurricanes Katrina and Rita, but
                        Notification Could Be Improved



                                         August 25, Year

                              Reference Number: 2006-40-104




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                August 25, 2006


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Automated Underreporter Program Compliance
                              Activities Were Properly Suspended for Taxpayers Affected by
                              Hurricanes Katrina and Rita, but Notification Could Be Improved
                              (Audit # 200640003)

 This report presents the results of our review to determine whether Wage and Investment (W&I)
 Division Automated Underreporter (AUR) Program1 management ensured compliance actions
 were suspended for individual taxpayers affected by Hurricanes Katrina and Rita.
 This review was conducted in conjunction with the President’s Council on Integrity and
 Efficiency (PCIE)2 as part of its examination of relief efforts provided by the Federal
 Government in the aftermath of Hurricanes Katrina and Rita. As such, a copy of the report will
 be forwarded to the PCIE Homeland Security Working Group, which is coordinating the
 Inspectors’ General reviews of this important subject.

 Synopsis
 In response to Hurricanes Katrina and Rita, President Bush issued Federal Disaster declarations
 covering the States of Alabama, Florida, Louisiana, Mississippi, and Texas. Consequently, the


 1
   The AUR Program matches taxpayer income and deduction information to amounts reported on individual income
 tax returns. The Internal Revenue Service corresponds with taxpayers when discrepancies are identified.
 2
   The PCIE was established by Executive Order 12805 (dated May 11, 1992) to address integrity, economy, and
 effectiveness issues that transcend individual Federal Government agencies and to increase the professionalism and
 effectiveness of Inspector General personnel throughout the Federal Government. The PCIE is primarily comprised
 of the Presidentially appointed Inspectors General.
                         Automated Underreporter Program Compliance
                        Activities Were Properly Suspended for Taxpayers
                          Affected by Hurricanes Katrina and Rita, but
                                  Notification Could Be Improved


Internal Revenue Service (IRS) announced administrative tax relief for affected taxpayers in the
Federal Disaster Areas.
W&I Division AUR Program management
ensured employees took prompt action to              The AUR system suppressed notices
suspend compliance activities and prevent          and  suspended compliance activities on
                                                   approximately 27,700 tax cases involving
notices from being issued to affected taxpayers.      W&I Division taxpayers affected by
AUR Program employees who accessed affected              Hurricanes Katrina and Rita.
taxpayer cases on the AUR system were notified
that the cases had been suspended. The AUR
system displayed a warning which stated, “Taxpayer resides in a Zip Code identified as a Natural
Disaster Area.”
Our review of a judgmental sample of 130 W&I Division AUR Program cases confirmed
controls were effective in suspending compliance actions. In 128 cases, AUR Program
employees had not taken any compliance actions after the IRS made Hurricane Disaster
declarations. In two sample cases, notices were mailed. We estimate that approximately
2,759 notices concerning discrepancies related to Tax Year 2003 were mailed to affected
W&I Division taxpayers after Hurricanes Katrina and Rita. However, the Correspondence
Production Services (CPS) branch inserted a stuffer with these notices informing taxpayers (1) to
contact the IRS if they have been affected by the recent disaster(s) in their area and (2) the IRS
may have disaster relief available to assist them. The Disaster Relief Council’s instructions
required the CPS branch to insert stuffers into notices that were printed prior to the Hurricanes
and were ready to be mailed to affected States. The Disaster Relief Council instructed the
CPS branch to mail the notices with stuffers rather than reprocessing and/or manually opening
each individual envelope trying to identify taxpayers residing in affected zip codes.
Although AUR Program management ensured taxpayer relief was provided by suspending
AUR Program compliance activities, not all taxpayers affected by the Hurricanes may be aware
of this relief. The IRS communicated the suspension of compliance activities through news
releases and its web site (IRS.gov). However, there were approximately 10,863
Hurricane-affected W&I Division taxpayers in the hardest hit areas who had received AUR
Program notices concerning discrepancies related to Tax Year 2003 prior to the IRS’ Hurricane
Disaster declarations. These taxpayers may not have seen the IRS news releases or visited the
IRS web site. They may not be aware they do not need to gather supporting documentation
concerning the discrepancies by the date specified on the notice. They may also not be aware of
available disaster relief or how to obtain additional information. To effectively communicate the
tax relief granted during catastrophic disasters, the AUR Program should send a notice directly to
the taxpayers who had previously received this correspondence.




                                                                                                   2
                         Automated Underreporter Program Compliance
                        Activities Were Properly Suspended for Taxpayers
                          Affected by Hurricanes Katrina and Rita, but
                                  Notification Could Be Improved



Recommendation
We recommended the Commissioners, Small Business/Self-Employed Division and
W&I Division, develop a notice to inform taxpayers when AUR Program compliance activities
are being suspended because of a disaster. The notice should be sent to affected taxpayers with
unresolved discrepancy notices.

Response
IRS management disagreed with our recommendation. Specifically, after a disaster of the
magnitude of Hurricanes Katrina and Rita, many families are displaced, sometimes for an
extended period of time. While the United States Postal Service (USPS) will hold mail and will
also attempt to forward mail, in the aftermath of such a catastrophic event victims do not always
provide forwarding addresses. In addition, taxpayers affected by disaster are already
overwhelmed with the effects of the disaster. Receiving notices from the IRS, regardless of the
intent of the notice, would place additional burden on the taxpayer. Also, if notices provide a
specific date for the resumption of compliance activities and that date is extended, the IRS would
be required to send even more notices to the taxpayer explaining the extension. Further, some
taxpayers may also have other pending IRS actions on their account. The AUR Program should
not be singled out to provide notices to the taxpayers. This may cause confusion for taxpayers
regarding why notices were sent on some IRS actions and not on others. Finally, the Taxpayer
Advocate Service has not received any comments or requests from taxpayers indicating they
want or need notices from the IRS that compliance actions have been suspended. Management’s
complete response to the draft report is included as Appendix V.

Office of Audit Comment
We disagree with the IRS’ reasons for not developing a notice to inform taxpayers when AUR
Program compliance activities are being suspended because of a disaster.
The IRS stated the USPS would not be able to deliver these notices for months or maybe years
and taxpayers do not always provide forwarding addresses. Notwithstanding, we believe the IRS
should consult with the USPS before reaching this conclusion. According to the USPS, mail
service was quickly restored to the Central Gulf Coast region. By September 10, 2005,
8 working days after Hurricane Katrina, the USPS was providing full delivery service to
approximately 75 percent of residents and businesses affected by Hurricane Katrina.
We agree with the IRS that suspending compliance activities allows the taxpayers to concentrate
on disaster recovery and temporarily relieves them of worry about their tax case. However, we


                                                                                                  3
                         Automated Underreporter Program Compliance
                        Activities Were Properly Suspended for Taxpayers
                          Affected by Hurricanes Katrina and Rita, but
                                  Notification Could Be Improved


believe that taxpayers would further benefit from a notice informing them of the fact that their
compliance activities were suspended.
The IRS could provide a telephone number and IRS web site address on the notice for taxpayers
to use to obtain additional information on available IRS disaster relief, updates on further
compliance relief, and the status of tax issues the taxpayer may have pending.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 622-5916.




                                                                                                   4
                                  Automated Underreporter Program Compliance
                                 Activities Were Properly Suspended for Taxpayers
                                   Affected by Hurricanes Katrina and Rita, but
                                           Notification Could Be Improved




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          Automated Underreporter Program Management Ensured
          Compliance Activities Were Suspended on Taxpayer Cases
          Affected by the Hurricanes ...........................................................................Page 5
          Taxpayers Affected by Disasters Should Be Informed That Automated
          Underreporter Program Compliance Activities Have Been Suspended .......Page 6
                    Recommendation 1:..........................................................Page 7


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Outcome Measure ................................................................Page 13
          Appendix V – Management’s Response to the Draft Report .......................Page 14
                            Automated Underreporter Program Compliance
                           Activities Were Properly Suspended for Taxpayers
                             Affected by Hurricanes Katrina and Rita, but
                                     Notification Could Be Improved




                                          Background

In response to disasters and emergencies, the Internal Revenue Service (IRS) provides disaster
relief to taxpayers and tax practitioners, enabling them to meet their tax obligations without
being penalized. The IRS has a process in place to determine the tax relief to be granted based
on the extent of the disaster and legal guidance.
The National Disaster Assistance Coordinator in the Small Business/
Self-Employed Division has overall responsibility for the Disaster
Assistance and Relief Program. To address catastrophic disasters, the IRS
has established a Disaster Relief Council, which is comprised of the
National Disaster Assistance Coordinator and executives/managers from
the four IRS operating divisions;1 the Communications and Liaison
function; the Office of Chief Counsel; the Taxpayer Advocate Service; and
the Modernization and Information Technology Services organization.
The IRS, under the Disaster Relief Council’s guidance, undertook
extensive efforts to assist taxpayers affected by Hurricanes Katrina and
Rita. The IRS provided taxpayers information on disaster tax relief and
assistance in reconstructing tax records.
In response to Hurricanes Katrina and Rita, President Bush issued Federal
Disaster declarations covering the States of Alabama, Florida, Louisiana,
Mississippi, and Texas. Consequently, the IRS announced administrative
tax relief for affected taxpayers in most of the Federal Disaster Areas.
The IRS issued a series of Disaster Relief Memoranda shortly after the Gulf States were
devastated by Hurricanes Katrina and Rita. These Disaster Relief Memoranda outlined the tax
relief granted, the Federal Disaster Areas covered, and the relief dates. The Disaster Relief
Memoranda addressed relief for taxpayers in the States of Alabama, Florida, Louisiana,
Mississippi, and Texas. Taxpayers who lived in counties and parishes designated by the Federal
Emergency Management Agency (FEMA) for Individual Assistance and/or Public Assistance
could be granted tax relief. Among other things, this tax relief involved suspending compliance
activities, including activities of the IRS Automated Underreporter (AUR) Program (described in
detail later in this section of the report).



1
 These are the Large and Mid-Size Business Division, the Small Business/Self-Employed Division, the Tax Exempt
and Government Entities Division, and the Wage and Investment Division.
                                                                                                      Page 1
                                Automated Underreporter Program Compliance
                               Activities Were Properly Suspended for Taxpayers
                                 Affected by Hurricanes Katrina and Rita, but
                                         Notification Could Be Improved


On September 2, 2005, the IRS stated it had suspended many compliance activities throughout
the affected areas. On the September 21, 2005, the IRS stated, “Based on updated information
regarding the impact of the hurricane, the IRS will provide relief from compliance activities until
Jan. 3, 2006, in the hardest-hit [sic] areas, specifically those designated by [the] FEMA for
‘individual assistance’.” The tax relief was subsequently extended to February 28, 2006, by the
Katrina Emergency Tax Relief Act of 2005.2 On February 17, 2006, the IRS announced that this
tax relief was further extended to August 28, 2006, for seven parishes in Louisiana and three
counties in Mississippi. Figure 1 shows the timeline of events for the compliance relief activities
related to Hurricanes Katrina and Rita.
                                   Figure 1: Hurricane Relief Timeline

                  Date                                                Event
       August 24, 2005            Hurricane Katrina hits Florida.

                                  President Bush declares disaster assistance available for Florida as a result of
       August 28, 2005
                                  Hurricane Katrina.
                                  Hurricane Katrina hits Alabama, Louisiana, and Mississippi. President Bush
       August 29, 2005            declares disaster assistance available for these three States as a result of
                                  Hurricane Katrina.
                                  IRS Commissioner Everson states, “People affected by Hurricane Katrina have
       August 30, 2005
                                  more than enough concerns – taxes shouldn’t be among them.”
                                  The IRS states it has suspended many compliance activities throughout the
       September 2, 2005
                                  areas affected by Hurricane Katrina.
                                  The IRS announces taxpayer relief from compliance activities for Hurricane
       September 21, 2005
                                  Katrina’s hardest hit areas until January 3, 2006.
                                  Congress passes the Katrina Emergency Tax Relief Act of 2005, thereby
       September 23, 2005
                                  extending the taxpayer relief period to February 28, 2006.

       September 23, 2005         Hurricane Rita hits Louisiana and Texas.

                                  President Bush declares disaster assistance available for Louisiana and Texas
       September 24, 2005
                                  as a result of Hurricane Rita.
                                  The IRS announces taxpayer relief from compliance activities for Hurricane
       September 26, 2005
                                  Rita’s hardest hit areas until February 28, 2006.
                                  The IRS announces taxpayer relief is extended to August 28, 2006, for seven
       February 17, 2006
                                  Louisiana parishes and three Mississippi counties.
     Source: Presidential and IRS Disaster declarations and IRS news releases.



2
    Pub. L. No. 109-73, 119 Stat. 2016.
                                                                                                                 Page 2
                               Automated Underreporter Program Compliance
                              Activities Were Properly Suspended for Taxpayers
                                Affected by Hurricanes Katrina and Rita, but
                                        Notification Could Be Improved


On September 21, 2005, the Deputy Commissioner for Services and Enforcement issued to
operating division executives and managers an internal memorandum concerning tax relief due
to Hurricane Katrina. The memorandum stated, “We will provide an extended period of relief
for taxpayers who reside or have businesses in the hardest hit areas – generally those designated
by [the] FEMA for ‘individual’ relief. These taxpayer accounts will be frozen systemically from
August 29, 2005, until January 3, 2006, and generally no compliance actions should take place
during that period. The only exceptions will be for exigent circumstances, . . . or when the
taxpayer specifically requests an action.”3 On October 12, 2005, the Deputy Commissioner for
Services and Enforcement issued a similar internal memorandum for Hurricane Rita, extending
the period of tax relief for taxpayers affected by the Hurricanes in Individual Assistance areas to
February 28, 2006. Both memoranda included a suspension of the AUR Program compliance
activities. The memoranda stated, “In general, examination actions . . . will not be taken on
taxpayers impacted by the Hurricane . . . disaster during the compliance activity suspension
period. These actions include, but are not limited to, issuance of notices or letters generated by
the AUR Program . . . .”
The AUR Program matches taxpayer income and deduction information to amounts reported on
individual income tax returns. Third parties such as banks, brokerage firms, and employers file
information returns reporting certain income and deductions.4 The IRS corresponds with
taxpayers when discrepancies are identified. If the taxpayers agree with the third-party
information or do not explain the discrepancies, the taxpayers are assessed additional taxes. In
Fiscal Year 2005, the IRS corresponded with over 1.7 million taxpayers concerning
discrepancies. The AUR Program
operates in six IRS campuses5 and is
administered by the Small
Business/Self-Employed and the
Wage and Investment (W&I)
Divisions.
The IRS will issue a series of notices
to taxpayers when income and/or

3
  An exigent circumstance is one involving the loss of opportunity for the Federal Government to collect taxes due,
such as the expiration of the statute of limitations, assets being placed beyond the reach of the Federal Government,
etc. Managers and employees must exercise good judgment and consider all of the relevant factors to determine that
exigent circumstances exist. If exigent circumstances exist, compliance activities may be pursued against a taxpayer
with documented managerial approval.
4
  Information returns are submitted by third parties to report certain business transactions to the IRS (e.g., payments
made to and from individuals such as dividends, interest, sales of certain assets, and wages). The information is
reported to the IRS on various forms such as the Form 1099 series (for various incomes such as Dividend, Interest,
Miscellaneous, etc.) and the Wage and Tax Statement (Form W-2).
5
  The campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions,
correct errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                               Page 3
                               Automated Underreporter Program Compliance
                              Activities Were Properly Suspended for Taxpayers
                                Affected by Hurricanes Katrina and Rita, but
                                        Notification Could Be Improved


deduction discrepancies are identified. The first notice (Computer Paragraph (CP) 2501 or
CP 2000) informs taxpayers of the discrepancies between the income and/or deductions reported
on their tax returns and the amounts reported by third parties. The taxpayers’ explanations for
the discrepancies dictate whether examiners close the cases with no additional tax assessments
(CP 2005) or propose additional taxes (CP 2000, Statutory Notice of Deficiency,6 etc.).
When IRS Disaster Relief Memoranda require suspension of enforcement actions, AUR Program
notices are not to be issued to taxpayers in the covered disaster area. In addition, AUR Program
employees will suspend work on any cases in process. If taxpayers respond to notices within the
required time periods requesting reasonable additional time, the requests will be approved. The
suspension of enforcement actions does not suspend interest or penalties from accruing on these
tax assessments in the future.
This review was performed at the W&I Division Headquarters in Atlanta, Georgia, in the
Reporting Compliance function; the Atlanta, Georgia, Austin, Texas, and Fresno, California,
AUR Program sites; and the Correspondence Production Services (CPS) branch in
Detroit, Michigan, and Ogden, Utah, during the period October 2005 through April 2006. The
audit was conducted in accordance with Government Auditing Standards. Detailed information
on our audit objective, scope, and methodology is presented in Appendix I. Major contributors
to the report are listed in Appendix II.




6
  A Statutory Notice of Deficiency is a legal notice which notifies the taxpayer that a tax deficiency exists and the
taxpayer is liable for the payment of tax.
                                                                                                                Page 4
                         Automated Underreporter Program Compliance
                        Activities Were Properly Suspended for Taxpayers
                          Affected by Hurricanes Katrina and Rita, but
                                  Notification Could Be Improved




                                Results of Review

Automated Underreporter Program Management Ensured Compliance
Activities Were Suspended on Taxpayer Cases Affected by the
Hurricanes
W&I Division AUR Program management ensured employees took prompt action to prevent
notices from being issued to affected taxpayers. Employees promptly input the Hurricane
Disaster Area zip codes and relief dates to the AUR system. The employees input the data
within approximately 2 workdays of the issuance of the Hurricanes Katrina and Rita Disaster
Relief Memoranda and any subsequent amendments. AUR Program management actions
supported IRS Commissioner Everson’s position that, “People affected by Hurricane Katrina
have more than enough concerns – taxes shouldn’t be among them.”
The AUR system automatically suppressed notices to taxpayers in Disaster Area zip codes and
informed employees of the taxpayers affected by the Hurricanes. This ensured W&I Division
AUR Program compliance activities were suspended on approximately 27,700 Tax
Year 2003 cases involving taxpayers affected by Hurricanes Katrina and Rita in the Individual
Assistance Disaster Areas. AUR
Program employees who accessed
affected taxpayer cases on the AUR
system were notified that the cases had
been suspended. A warning indicated the
“Taxpayer resides in a Zip Code
identified as a Natural Disaster Area.”
Our review of a judgmental sample of 130 W&I Division AUR Program cases from the
Hurricanes Katrina and Rita Disaster Area zip codes confirmed that AUR Program controls had
suspended compliance actions. In 128 cases, AUR Program employees had not taken any
compliance actions and the AUR system had suppressed the notices. In two cases in our sample,
AUR Program notices were mailed.
We estimate that approximately 2,759 notices concerning discrepancies related to Tax Year 2003
were mailed to affected W&I Division taxpayers after the IRS Disaster declarations were made
for Hurricanes Katrina and Rita. However, the CPS branch inserted a stuffer with these notices
informing taxpayers (1) to contact the IRS if they have been affected by the recent disaster(s) in
their areas and (2) the IRS may have disaster relief available to assist them. The Disaster Relief
Council’s instructions required the CPS branch to insert stuffers into notices that were printed
prior to the Hurricanes and were ready to be mailed to affected States. The Disaster Relief
                                                                                           Page 5
                         Automated Underreporter Program Compliance
                        Activities Were Properly Suspended for Taxpayers
                          Affected by Hurricanes Katrina and Rita, but
                                  Notification Could Be Improved


Council instructed the CPS branch to mail the notices with stuffers rather than reprocessing
and/or manually opening each individual envelope trying to identify taxpayers residing in
affected zip codes.
The CPS branch, which prints AUR Program notices, took appropriate actions in response to the
Disaster Relief Memoranda. The CPS branch inserted a stuffer with the notice or affixed a label
to the envelopes ready to be mailed to affected States. The label instructs taxpayers, “If you
have been affected by the disaster in
your area, and need more time to
deal with the issues in the enclosed
notice, please contact us at the
telephone number or address on this
notice by the requested response
date.” The stuffer provided
additional information on contact
numbers and publications on
disaster losses.

Taxpayers Affected by Disasters Should Be Informed That Automated
Underreporter Program Compliance Activities Have Been Suspended
On September 2, 2005, the IRS announced that it was suspending compliance activities for
taxpayers affected by Hurricane Katrina. On September 26, 2005, the information was amended
to include Hurricane Rita and extended the compliance activities suspension date to
February 28, 2006. The IRS communicated this information to affected taxpayers via news
releases and its web site (IRS.gov). W&I Division AUR Program management followed the
IRS’ disaster program guidelines to prevent AUR Program notices from being sent to affected
taxpayers.
Although W&I Division AUR Program management ensured taxpayer relief was provided by
suspending compliance activities, not all taxpayers affected by the Hurricanes may be aware of
this relief. Approximately 10,863 W&I Division taxpayers affected by the Hurricanes had
received AUR Program notices concerning discrepancies related to Tax Year 2003 prior to the
IRS’ Hurricane Disaster declarations. These taxpayers may not have been made aware of the
AUR Program compliance relief and may still be concerned about promptly responding to the
IRS. Taxpayers may not have seen the IRS news releases or visited the IRS web site. They may
not be aware they do not need to gather supporting documentation concerning the discrepancies
by the date specified on the notice. They may also not be aware of available disaster relief or
how to obtain additional information.



                                                                                           Page 6
                          Automated Underreporter Program Compliance
                         Activities Were Properly Suspended for Taxpayers
                           Affected by Hurricanes Katrina and Rita, but
                                   Notification Could Be Improved


In some instances, the IRS determines that
a disaster or emergency is not severe
enough to warrant suspending compliance
activities. When compliance actions are
not suspended, the CPS branch will insert a
stuffer (i.e., Notice 1155) with the
AUR Program notices addressed to
taxpayers in disaster area zip codes. The
stuffer informs taxpayers to contact the IRS
if they have been affected by the recent
disaster in their area and that the IRS may
have disaster relief available to assist them.
However, if the IRS determines the
disasters or emergencies are significant
enough to warrant suspending compliance
activities, it does not directly inform the
affected taxpayers.
To effectively communicate extensions of time to comply with the information requests to
taxpayers affected by catastrophic disasters, the IRS should send notices directly to the taxpayers
who had previously received AUR Program correspondence. The IRS would need to coordinate
with the United States Postal Service (USPS) to determine the timing of mailing notices to
affected zip codes, to ensure taxpayers have had adequate time for changes of address to take
effect. Notification of tax relief such as these extensions of time to comply would help to reduce
burden for affected taxpayers.

Recommendation
Recommendation 1: The Commissioner, W&I Division, should work with the
Commissioner, Small Business/Self-Employed Division, to develop a notice to inform taxpayers
when AUR Program compliance activities are being suspended because of a disaster. The notice
should be sent to affected taxpayers with unresolved AUR Program discrepancy notices and
provide the following information:
   •   The dates on which compliance activities will be suspended and resumed.
   •   A telephone number and/or IRS web site address taxpayers could use to obtain additional
       information on available IRS disaster relief and updates on any further compliance relief
       extensions.
This notice could also be used by other IRS operating divisions during future catastrophic
disasters in which compliance activities are suspended.

                                                                                             Page 7
                  Automated Underreporter Program Compliance
                 Activities Were Properly Suspended for Taxpayers
                   Affected by Hurricanes Katrina and Rita, but
                           Notification Could Be Improved


Management’s Response: IRS management disagreed with our recommendation.
Specifically, after a disaster of the magnitude of Hurricanes Katrina and Rita, many
families are displaced, sometimes for an extended period of time. While the USPS will
hold mail and will also attempt to forward mail, in the aftermath of such a catastrophic
event victims do not always provide forwarding addresses. In addition, taxpayers
affected by disaster are already overwhelmed with the effects of the disaster. Receiving
notices from the IRS, regardless of the intent of the notice, would place additional burden
on the taxpayer. Also, if notices provide a specific date for the resumption of compliance
activities and that date is extended, the IRS would be required to send even more notices
to the taxpayer explaining the extension. Further, some taxpayers may also have other
pending IRS actions on their account. The AUR Program should not be singled out to
provide notices to the taxpayers. This may cause confusion for taxpayers regarding why
notices were sent on some IRS actions and not on others. Finally, the Taxpayer Advocate
Service has not received any comments or requests from taxpayers indicating they want
or need notices from the IRS that compliance actions have been suspended.
Office of Audit Comment: We disagree with the IRS’ reasons for not developing a
notice to inform taxpayers when AUR Program compliance activities are being
suspended because of a disaster.
The IRS stated the USPS would not be able to deliver these notices for months or maybe
years and taxpayers do not always provide forwarding addresses. Notwithstanding, we
believe the IRS should consult with the USPS before reaching this conclusion.
According to the USPS, mail service was quickly restored to the Central Gulf Coast
region. By September 10, 2005, 8 working days after Hurricane Katrina, the USPS was
providing full delivery service to approximately 75 percent of residents and businesses
affected by Hurricane Katrina.
We agree with the IRS that suspending compliance activities allows the taxpayers to
concentrate on disaster recovery and temporarily relieves them of worry about their tax
case. However, we believe that taxpayers would further benefit from a notice informing
them of the fact that their compliance activities were suspended.
The IRS could provide a telephone number and IRS web site address on the notice for
taxpayers to use to obtain additional information on available IRS disaster relief, updates
on further compliance relief, and the status of tax issues the taxpayer may have pending.




                                                                                     Page 8
                            Automated Underreporter Program Compliance
                           Activities Were Properly Suspended for Taxpayers
                             Affected by Hurricanes Katrina and Rita, but
                                     Notification Could Be Improved



                                                                                            Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether Wage and Investment (W&I)
Division Automated Underreporter (AUR) Program1 management ensured compliance actions
were suspended for individual taxpayers affected by Hurricanes Katrina and Rita. To
accomplish this objective, we:
I.      Determined the effectiveness of the systemic actions taken by the Internal Revenue
        Service (IRS) to suspend AUR Program compliance activities on affected W&I Division
        taxpayer accounts from the declared Disaster Areas.
        A. Secured a copy of the Individual Master File (IMF)2 for Tax Year 2003
           AUR Program cases as of December 2005 for the States of Alabama, Louisiana,
           Mississippi, and Texas. We did a limited validation of the data by matching a
           judgmental sample of 36 Social Security Numbers to the Integrated Data Retrieval
           System3 to determine the accuracy of the taxpayer information and account activity.
           Our tests of the reliability of the data did not identify any errors.
        B. Analyzed the IMF data for the Tax Year 2003 AUR Program cases for areas
           designated by the Federal Emergency Management Agency for Individual Assistance
           to determine the number of AUR Program discrepancy notices the W&I Division
           mailed prior to or after the IRS made its Hurricane Disaster declarations.
        C. Selected a judgmental sample of 130 taxpayers affected by the Hurricanes with
           AUR Program cases from the counties/parishes designated by the Federal Emergency
           Management Agency for Individual Assistance in Alabama, Louisiana, Mississippi,
           and Texas. We judgmentally selected 100 taxpayers from a listing of 3,424 disaster-
           affected taxpayers provided to us from the IRS. In addition, we also judgmentally
           selected 30 taxpayers from the 14,822 taxpayers on the IMF extract that had account
           activities after the Hurricane Disaster declarations.4 We used judgmental sampling



1
  The AUR Program matches taxpayer income and deduction information to amounts reported on individual income
tax returns. The Internal Revenue Service corresponds with taxpayers when discrepancies are identified.
2
  The IMF is the IRS database that maintains transactions or records of individual tax accounts.
3
  IRS computer system capable of retrieving and updating stored information; it works in conjunction with a
taxpayer’s account records.
4
  Some of the affected taxpayers were found in both the IRS listing and our IMF extract. However, we did not
project the results of our judgmental sample.
                                                                                                     Page 9
                       Automated Underreporter Program Compliance
                      Activities Were Properly Suspended for Taxpayers
                        Affected by Hurricanes Katrina and Rita, but
                                Notification Could Be Improved


         because, due to time constraint, we wanted to focus on those accounts with potential
         activities after the Hurricanes.
      D. Researched the Integrated Data Retrieval System and the AUR system (as necessary)
         for the judgmental sample of 130 taxpayers to determine if AUR Program compliance
         activities were properly suspended on each of the cases in our sample.
II.   Determined what actions AUR Program management took to ensure affected
      W&I Division taxpayers in areas designated by the Federal Emergency Management
      Agency for Individual Assistance were identified and handled appropriately.
      A. Interviewed and obtained documentation from W&I Division AUR Program
         management to determine what:
         1. Guidance was provided to them by the IRS National Headquarters.
         2. Instructions they issued to the AUR Program employees on suspending
            compliance activities.
         3. Impact the Hurricane disasters had on processing AUR Program inventory.
         4. Actions were taken to ensure proper identification and control of Hurricane
            disaster cases.
         5. Actions were taken to educate taxpayers on obtaining relief from AUR Program
            compliance activities.
      B. Interviewed and obtained documentation from the Atlanta, Georgia; Austin, Texas;
         and Fresno, California, AUR Program site representatives to identify:
         1. Guidance they received from W&I Division AUR Program management on
            suspending AUR Program compliance activities.
         2. Policies and guidance they disseminated to their local staffs.
         3. Their processes for handling Hurricane Disaster cases.
      C. Analyzed the average number of days from the IRS’ Hurricane Disaster declarations
         to input of affected Individual Assistance areas’ zip codes to the AUR system to
         ensure notice suppression.
      D. Interviewed and obtained documentation from the W&I Division Correspondence
         Production Services branch about the printing and mailing of AUR Program notices
         for the Disaster Areas affected by the Hurricanes.




                                                                                      Page 10
                       Automated Underreporter Program Compliance
                      Activities Were Properly Suspended for Taxpayers
                        Affected by Hurricanes Katrina and Rita, but
                                Notification Could Be Improved



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Mary V. Baker, Director
Bryce Kisler, Audit Manager
Julia Tai, Lead Auditor
Gwendolyn Green, Senior Auditor
James Traynor, Senior Auditor
Jean Kao, Auditor




                                                                                   Page 11
                        Automated Underreporter Program Compliance
                       Activities Were Properly Suspended for Taxpayers
                         Affected by Hurricanes Katrina and Rita, but
                                 Notification Could Be Improved



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Reporting Compliance, Wage and Investment Division SE:W:CP:RC
Program Manager, Automated Underreporter Program, Wage and Investment Division
SE:W:CP:RC:AUR
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   Chief, GAO/TIGTA/Legislative Implementation Branch SE:S:CLD:PSP:GTL
   Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                    Page 12
                             Automated Underreporter Program Compliance
                            Activities Were Properly Suspended for Taxpayers
                              Affected by Hurricanes Katrina and Rita, but
                                      Notification Could Be Improved



                                                                                               Appendix IV

                                     Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 10,863 taxpayers affected (see page 6).

Methodology Used to Measure the Reported Benefit:
Based on our Individual Master File1 extract of open Tax Year 2003 Automated Underreporter
Program2 cases from areas designated by the Federal Emergency Management Agency for
Individual Assistance in the States of Alabama, Louisiana, Mississippi, and Texas, we identified
approximately 10,863 taxpayers that had received an AUR Program notice prior to the
Hurricanes Katrina and Rita Disaster declarations made by the Internal Revenue Service. These
taxpayers may not have been made aware of the Automated Underreporter Program compliance
relief and may still be concerned about promptly responding to the Internal Revenue Service.




1
  This is the Internal Revenue Service database that maintains transactions or records of individual tax accounts.
2
  The Automated Underreporter Program matches taxpayer income and deduction information to amounts reported
on individual income tax returns. The Internal Revenue Service corresponds with taxpayers when discrepancies are
identified.
                                                                                                         Page 13
         Automated Underreporter Program Compliance
        Activities Were Properly Suspended for Taxpayers
          Affected by Hurricanes Katrina and Rita, but
                  Notification Could Be Improved



                                                   Appendix V

Management’s Response to the Draft Report




                                                           Page 14
 Automated Underreporter Program Compliance
Activities Were Properly Suspended for Taxpayers
  Affected by Hurricanes Katrina and Rita, but
          Notification Could Be Improved




                                                   Page 15
 Automated Underreporter Program Compliance
Activities Were Properly Suspended for Taxpayers
  Affected by Hurricanes Katrina and Rita, but
          Notification Could Be Improved




                                                   Page 16
 Automated Underreporter Program Compliance
Activities Were Properly Suspended for Taxpayers
  Affected by Hurricanes Katrina and Rita, but
          Notification Could Be Improved




                                                   Page 17
